CERTIFICATE OF SERVICE
I Salvador Amilcar Herrera Flores aka Michael Ortega, Pro Se, confined in
Nothwest Detention Center timely am filing this petition, since it is being deposited
in the institution’s internal mail system on Septembe 8, 2021 and First-class
postage has been prepaid and as requeide by Rule 29.2 , I have served the enclosed
petition for wirt of certiorari, motion for leave to proceed in forma pauperis and
appendixes on each party to the above proceeding to that party’s counsel, and on
every other person required to be served, by depositing an envelope containing the
above documents in the United States mail properly addressed to each of them and
with the firtst-class postage prepaid . the name and address of these served are as
follows:
Office of clerk
Washington, DC 20543
Office of attorney
1162 Court Street NE
Slem Or, 97301
I Salvador Amilcar Herrera Flores aka Michael Ortega, Pro Se, declare under
penalty of perjury that the foregoing is true and correct. Executed on September 8,
2021

7

m
Michael Ortega,

Aka Salvador Amilcar Herrera Flores
A206147530

Additional material
from this filing is
available in the
Clerk's Office.

